U.S. DEPARTMENT OF COMMERCE
         Office of Inspector General



               PUBLIC
              RELEASE



                 INTERNATIONAL
          TRADE ADMINISTRATION

        US&FCS American Business Center
             Program Funding Decisions
                      Were Merit Based
                      CFDA No. 11.115


       Audit Report No. BTD-10957-9-0001 / March 1999




       Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                 Audit Report BTD-10957-9-0001
Office of Inspector General                                                                                    March 1999

                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          I.        ABC Program Used Merit-Based Evaluation
                    Criteria for Award Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          II.       ABC Solicitation Process Adequately Notified
                    Potential New Applicants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          III.      Procedures and Practices for Reviewing
                    New ABC Applicants Were Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          IV.       Procedures and Practices for Selecting
                    New ABC Awardees Met Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          V.        Procedures and Practices for Renewing
                    ABC Awards Were Sufficient . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          VI.       ABC Program Now Included in the CFDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDIX I -                  Procedures for Solicitation, Review, and Selection
                                of American Business Centers

APPENDIX II -                 Map of New Award Project Locations for Fiscal Year 1998

APPENDIX III -                US&FCS’s Complete Response to the Draft Report
U.S. Department of Commerce                                             Audit Report BTD-10957-9-0001
Office of Inspector General                                                                March 1999

                                    EXECUTIVE SUMMARY

The Office of Inspector General has conducted an audit of the fiscal year 1997 and 1998 award
criteria, procedures and practices for soliciting, reviewing, and selecting applications for financial
assistance under the American Business Center (ABC) program, which the U.S. and Foreign
Commercial Service (US&FCS), International Trade Administration, described in the Catalog of
Federal Domestic Assistance (CFDA) as No. 11.115. The audit was conducted as part of a
Department-wide review of Commerce’s discretionary financial assistance programs initiated at
the request of the Chairman of the Senate Committee on Commerce, Science, and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually.

Through the ABC program, US&FCS assists U.S. firms in overcoming many of the obstacles to
entry into the Russian/Newly Independent States market, including the lack of (1) commercial,
economic, and legal information, (2) affordable office space, and (3) adequate transportation and
telecommunications facilities. In fiscal year 1997, the ABC program renewed seven prior
cooperative agreements, totaling $649,998. In fiscal year 1998, the ABC program awarded seven
new cooperative agreements, totaling $1,757,078.

We examined US&FCS’s criteria, procedures and practices for the solicitation, review, and
selection of ABC awards and renewals. We found that they met the Department’s requirements
and were calculated to result in merit-based awards. Specifically, our audit disclosed that
US&FCS:

l      Developed and used merit-based award criteria, consistent with the objectives of the
       program, to evaluate applications for financial assistance (see page 7).

l      Complied with requirements for soliciting applications for new ABC awards. Procedures
       used were sufficient to obtain a nationwide response from eligible applicants (see
       page 7).

l      Followed established procedures in reviewing applications for new ABC awards. Engaged
       in practices which were sufficient to provide an independent and qualified competitive
       review of each application (see page 8).

l      Followed established procedures for selecting applications for funding under the ABC
       program that were sufficient to satisfy minimum requirements (see page 10).


                                                  i
U.S. Department of Commerce                                          Audit Report BTD-10957-9-0001
Office of Inspector General                                                             March 1999

l      Followed established procedures for renewing prior awards. Engaged in practices which
       were sufficient to provide an independent and qualified competitive review of each
       application (see page 11).

l      Did not include the ABC program in the CFDA for fiscal year 1998, though US&FCS had
       requested its inclusion. The CFDA contains vital information on financial and nonfinancial
       assistance programs administered by federal departments, which is then used by applicants
       and in the federal budgeting and appropriations process. By not ensuring that the ABC
       program was included in the CFDA as required, US&FCS had not disclosed all ABC
       program details to the Congress and potential applicants in the most efficient manner (see
       page 12).

We commend US&FCS for its sound management of the ABC program. Our only
recommendation for action in the draft report was for the Assistant Secretary and Director
General to work with the General Services Administration to ensure that the ABC program is
promptly included in the CFDA. In response to the draft report, US&FCS informed us that it
resubmitted its announcement for a CFDA identification number and title, and the program was
included in the December 8, 1998 issue of the CFDA under program number 11.115.
Accordingly, the recommendation is resolved, and no further action by US&FCS is needed.
US&FCS’s complete response to the draft report is attached as Appendix III.




                                               ii
U.S. Department of Commerce                                                   Audit Report BTD-10957-9-0001
Office of Inspector General                                                                      March 1999

                                           INTRODUCTION

The American Business Center (ABC) Program was authorized by the Freedom Support Act of
1992, with funding of $12 million, to assist U. S. companies, especially small and medium-sized
firms, in conducting trade and investment in Russia and the Newly Independent States (NIS)1 of
the former Soviet Union. The program, which is described in the Catalog of Federal Domestic
Assistance (CFDA) as No. 11.115, is administered by the U.S. and Foreign Commercial Service
(US&FCS), an agency of the International Trade Administration. The ABC program assists U.S.
firms in overcoming many of the obstacles to entry into the Russian/NIS market, including the
lack of (1) commercial, economic, and legal information, (2) affordable office space, and (3)
adequate transportation and telecommunications facilities.

US&FCS’s officials designed the program to include 14 ABC sites that would be either “solo”
sites or collocated with established US&FCS commercial offices in Russia and the NIS. The
selection of solo sites was intended to concentrate on commercial areas, beyond the network of
existing US&FCS posts, that offer the potential for economic opportunity and an element of
geographic diversity for the ABCs.

The ABCs are designed to provide such services as:

l       Office space and conference facilities;

l       Telephone, photocopy, and facsimile services;

l       Computer and audio/visual equipment rental;

l       Secretarial assistance;

l       Translation and interpretation assistance; and

l       Commercial market research and counseling.

During fiscal year 1997, the ABC program did not fund new agreements, but renewed seven
cooperative agreements, totaling $649,998. During fiscal year 1998, the program awarded seven
new cooperative agreements, totaling $1,757,078. A map of the locations of new awardees
during fiscal year 1998 is provided as Appendix II.




        1
          The Newly Independent States (NIS) are the countries that constituted the former Soviet Union:
Armenia, Azerbaijan, Belarus, Georgia, Kazakstan, Kyrgyzstan, Moldova, Tajikistan, Turkmenistan, Ukraine, and
Uzbekistan (in addition to Russia).

                                                      1
U.S. Department of Commerce                                            Audit Report BTD-10957-9-0001
Office of Inspector General                                                               March 1999

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) how much will be awarded.
Technically, all Commerce financial assistance programs are discretionary, as contrasted with
entitlement, programs. However, the authorizing legislation for the programs provides for
varying degrees of discretion in making awards.

The use of competitive selection procedures has been determined to be the most effective method
of ensuring that financial assistance awards are made on the basis of merit. One of the primary
purposes of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to
encourage competition in the award of federal financial assistance to the maximum extent
practicable in order to fairly and objectively identify and fund, based on merit, the best possible
projects proposed by applicants, and thereby more effectively achieve program objectives.

The Office of Management and Budget (OMB) has issued regulations on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980's, are:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following guidelines of particular relevance to federal financial
assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements The Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

l      OMB Circular A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity

                                                 2
U.S. Department of Commerce                                           Audit Report BTD-10957-9-0001
Office of Inspector General                                                              March 1999

       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be reviewed for consistency with agency priorities by a policy-level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements The Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish
       management controls for federal programs and operations, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on these guidelines in developing and issuing policies and procedures for its
discretionary funding programs. Department Administrative Order (DAO) 203-26, Department
of Commerce Grants Administration, requires that (1) all Commerce discretionary grant program
awards be made on the basis of competitive reviews unless a special waiver is obtained, (2)
competitive review processes meet minimum standards outlined in the DAO, and (3) all
Commerce agencies publish, at least annually, a notice in the Federal Register which includes
basic information for each discretionary grant program. The chart presented on the next page
depicts the basic process and controls for the solicitation, review, and selection of financial
assistance awards as set forth in DAO 203-26. The processes we reviewed during our audit are
color coded for this chart.




                                                3
U.S. Department of Commerce                                                                                                                             Audit Report BTD-10957-9-0001
Office of Inspector General                                                                                                                                                March 1999

                                                                                                  FIGURE 1


                                            Department of Commerce Financial Assistance Awards Process
   Congress




                                     LEGISLATIVE AUTHORITY &
                                     APPROPRIATIONS REQUIREMENTS




                                                                                                                                      PREAWARD SCREENING
   Department




                                                                                                                                      * Office of General Counsel Review        FINANCIAL
                                     POLICIES &
                                                                                                                                                                                ASSISTANCE
                                     PROCEDURES                                                                                       * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                        -- Limited Background Check
                                                                                                                                        -- Credit Review
                                                                                                                                        -- Outstanding Audit Issues




                                                          SOLICITATION
                                                                                 REVIEW
   Bureau/Program




                                                                                                         SELECTION                                 PREAWARD SCREENING
                                      POLICIES &          Public Announcement
                                      PROCEDURES          and Notification of    * Independent Review                                              * Outstanding Accounts
                                                                                                         *   Quantitative Scores                                                SIGNED BY GRANT
                                                          Financial Assistance      Panel(s)             *   Public Policy Considerations            Receivable                 OFFICER
                                                          Opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                      * Suspensions & Debarments   OR DESIGNATED
                                                          Federal Register,      * Numeric Ranking       *   Decision Fully Justified and          * Award Prepared Properly    OFFICIAL
                                                          Commerce Business                                  Documented
                                                          Daily, Internet Web
                                                          Sites)
   Financial Assistance Applicants




                                                                                                                                                                                   AWARD
                                                         PROPOSAL




                                                                                                         4
U.S. Department of Commerce                                            Audit Report BTD-10957-9-0001
Office of Inspector General                                                               March 1999

                                    PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman, Committee on
Commerce, Science, and Transportation. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each IG
review and report on the criteria developed, either statutorily or administratively, to guide agency
officials in making discretionary spending decisions, and on the extent to which the criteria are
appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase (completed) and
an individual program audit phase (ongoing). During the survey phase, we identified and
examined the body of laws, regulations, and other guidance applicable to the administration of
federal financial assistance programs. We also examined the authorizing legislation for each
Commerce financial assistance program and classified each program as either a “full discretion”
program or a “limited discretion” program, based on the extent to which the legislation limits the
agency’s authority to independently determine the recipients and funding levels of the awards
made under the program. Finally, we examined the fiscal year 1997 appropriations legislation to
identify any earmarked projects.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including US&FCS’s ABC program. We are evaluating the adequacy of
each program’s established award procedures and criteria for evaluating individual applications.
For those programs with procedures deemed to be adequate, we are ascertaining whether they
were followed in making awards in fiscal year 1997. For those programs with procedures
considered to be inadequate or lacking, we are reviewing how the fiscal year 1997 award
decisions were made. Finally, we are examining the legislatively mandated projects identified for
each program and determining their significance and impact on fiscal year 1997 award decisions.
In the event that a particular funding program made no new awards during fiscal year 1997, we
are reviewing award decisions made during fiscal year 1998. We plan to issue individual reports,
with any appropriate recommendations, on each program, followed by a capping report
summarizing the results of the individual audits and providing recommendations for the
Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the


                                                 5
U.S. Department of Commerce                                             Audit Report BTD-10957-9-0001
Office of Inspector General                                                                March 1999

results of the survey phase of the OIG’s review, and discussed some of the preliminary
observations from the individual program audits.

This performance audit focused on funding decisions made during fiscal years 1997 and 1998
under the ABC program. Specifically, we:

l      Reviewed the authorizing legislation and information summarized in the CFDA to identify
       criteria for funding decisions.

l      Reviewed policies and procedures for soliciting and reviewing new proposals during fiscal
       year 1998, and for renewing awards during fiscal year 1997, and selecting recipients for
       funding (see Appendix I for flowchart of process). We also reviewed the Competitive
       Application Package and Federal Register notice for the ABC program. We assessed
       whether the procedures were adequate and whether they were in compliance with DAO
       203-26.

l      Compared the procedures with US&FCS’s fiscal year 1997 and 1998 award practices to
       determine if the process contained adequate internal controls to provide for competitive,
       merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and US&FCS policies and procedures were followed.

l      Interviewed ABC program office officials and personnel from the Department’s Office of
       Executive Assistance Management (OEAM) concerning US&FCS’s solicitation, review,
       and selection procedures.

l      Examined fiscal year 1997 and 1998 appropriations legislation to identify legislatively
       mandated projects for this program. None were found.

We did not rely upon computer-based data supplied by US&FCS and OEAM, and cited in the
report, during the audit. We therefore conducted neither tests of the reliability of the data, nor of
the controls over the computer-based system that produced the data.

We performed the review at US&FCS’s ABC office and OEAM in September and October 1998.
We conducted the audit in accordance with generally accepted government auditing standards,
under the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.




                                                  6
U.S. Department of Commerce                                            Audit Report BTD-10957-9-0001
Office of Inspector General                                                               March 1999

                          FINDINGS AND RECOMMENDATIONS

We found that US&FCS’s criteria, procedures, and practices for soliciting, reviewing, and
selecting new awards during fiscal year 1998 and renewals during fiscal year 1997 complied with
statutory, departmental, and US&FCS requirements and were designed to result in
merit-based awards. US&FCS’s efforts to solicit applications for seven new ABC awards funded
during fiscal year 1998 generated nationwide interest from numerous potential applicants.
Applications were reviewed by US&FCS employees and outside reviewers applying the
appropriate criteria, and their recommendations were accepted without deviation. In addition, we
also found that US&FCS had procedures and practices for renewals of prior awards and properly
followed them in fiscal year 1997. We also found that the ABC program was not included in the
CFDA during fiscal year 1998. US&FCS informed us after we issued the draft report that the
program was included in the December 8, 1998 issue of the CFDA.

I.     ABC Program Used Merit-Based Evaluation Criteria for Award Decisions

ABC officials implemented technical and public policy evaluation criteria that were consistent
with the objectives of the program and complied with statutory provisions for making awards.
The applicable criteria for evaluating applications for new awards were published in four Federal
Register notices titled, “Cooperative Agreement Program for an American Business Center in
Russia and the Newly Independent States.” The notices appeared in the September 15, 1997,
November 3, 1997, January 9, 1998, and January 20, 1998 issues of the Federal Register. In
fiscal year 1997, the ABC program allowed each of the existing seven ABC award recipients to
compete for up to $150,000 to operate for up to an additional 12 months. Proposals for renewals
were processed in accordance with procedures outlined in a Federal Register Notice,
“Competitive Application Review,” dated January 15, 1997, which references a previous Federal
Register notice (July 9, 1993). Based on our review, we concluded that the criteria, which are
discussed in the following sections, were adequate and resulted in competitive merit-based award
selections in fiscal years 1997 and 1998.

II.    ABC Solicitation Process Adequately Notified Potential New Applicants

US&FCS’s procedures and practices for the ABC program met the regulatory requirements for
public notice of the intent to award. As a result, US&FCS received requests for application kits
from 49 institutions from around the country for the new awards funded during fiscal year 1998.
Widespread solicitation of eligible applicants helps ensure that federal programs receive multiple
applications responsive to program objectives and provides potential applicants with an
opportunity to apply for assistance.




                                                 7
U.S. Department of Commerce                                            Audit Report BTD-10957-9-0001
Office of Inspector General                                                               March 1999

DAO 203-26, Section 4.02, lists required solicitation procedures for competitive financial
assistance programs. These procedures are designed to ensure widespread notification of the
interested public. Section 4.02 provides the following solicitation criteria, in part:

l      Annual Public Notice. To inform the interested public, each organization unit shall publish
       at least annually a notice in the Federal Register which includes basic information for each
       discretionary grant program.

l      Other Solicitations of Applications. Further notice(s) in the Federal Register or other
       publications soliciting applications or preapplications must include information published
       in the Annual Public Notice.

l      Minimum Notice. In order to provide the public reasonable notice, there must be a
       minimum of 30 days between the date of publication and the closing date for receipt of
       applications.

Section 4.02.(f.) of the DAO states, “To ensure widespread notification to the public, program
officials are strongly encouraged to use publications in addition to the Federal Register, which, in
their opinion, have a wide distribution among interested persons.” For large, undefined applicant
pools, such as those businesses and nonprofit institutions with an interest in assisting U.S.
companies in Russia and the NIS, broad-based solicitation media such as the annual Federal
Register notice, coupled with an announcement on the World Wide Web, are likely to reach a
significant portion of the eligible community.

US&FCS complied with the minimum requirement for widespread distribution of basic grant
information. The four notices published in the Federal Register established application closing
dates of October 15, 1997, December 3, 1997, February 9, 1998, and February 19, 1998, and set
forth the criteria for evaluating applications. US&FCS further publicized the availability of the
awards by posting the announcement on its Internet web site. By using the Federal Register and
Internet web site, US&FCS effectively solicited a sufficient number of responsive applications.

III.   Procedures and Practices for Reviewing New ABC Applicants Were Adequate

The ABC review panels used criteria which were consistent with the program objectives to
evaluate applications for new merit-based awards. All of the applications were reviewed by a
panel, as required by departmental and US&FCS procedures. The panel members also
documented their evaluation as required by DAO 203-26, Section 4.05(b). US&FCS expanded
the review process by inviting reviewers from outside US&FCS and the Department to
participate, thus enhancing the objectivity of the award process.



                                                 8
U.S. Department of Commerce                                             Audit Report BTD-10957-9-0001
Office of Inspector General                                                                March 1999

The weighted criteria published in the notices and used to evaluate the applications were as
follows:

l      Quality of work plan (30 points);
l      Qualification of applicant (30 points);
l      Market knowledge of locations (20 points);
l      Project timetable (10 points);
l      U.S. small business utility (5 points); and
l      Cost-effectiveness (5 points).

US&FCS further divided the criteria, with points given for each subcriterion, for use in assessing
the merits of each applicant. For instance, the quality of the work plan would be determined by
assessing the applicant’s proposals for the core commercial activities, the marketing strategy, the
center management and staffing, the plans for cooperating with US&FCS, and the outreach
programs to NIS firms.

DAO 203-26, Section 4.02h.1, mandates that agency competitive review processes meet
minimum requirements, such as the following:

l      Applications are treated fairly under the review process;

l      Each application receives an independent, objective review by one or more review panels
       qualified to evaluate the applications submitted under the program;

l      Each review panel uses the selection criteria that apply to the program covered by the
       application notice.

In accordance with an agreement with US&FCS on the scope of the work, reviewers had to
address the weighted criteria, verify that required standard forms and other elements of the
application are present, and comment in writing on the applicant’s qualifications. We found that
reviewers applied the criteria published in the notice and the additional subcriteria to assess the
applicants, and that they properly documented their reviews of each application on evaluation
forms.

DAO 203-26, Section 4.02h.1.(d.) requires that each review panel include at least three persons.
Under the order, panel members are expected to be professional employees of US&FCS and the
Department. However, reviewers from outside US&FCS and the Department are permitted
under the DAO. No other criteria for membership are listed; the ABC program deputy director
has broad discretion in the choice of members.



                                                 9
U.S. Department of Commerce                                           Audit Report BTD-10957-9-0001
Office of Inspector General                                                              March 1999

US&FCS used individual panels, each with two ITA employees and one from the State
Department, to review the applications for each set of awards. This procedure provided a
measure of independence. A US&FCS official agreed with our position that the use of
knowledgeable outside reviewers to evaluate applications provided an independent perspective
and enhances the objectivity of the merit-based selection process.

IV.    Procedures and Practices for Selecting New ABC Awardees Met Requirements

US&FCS received only nine applications for the awards: one application for each of six awards;
two applications for another award; and one incomplete application for one award, which was
judged unqualified for further review. Nevertheless, US&FCS complied with the Department’s
requirements for selecting the awardees. DAO 203-26, Section 4.02 h.1.(f)-(g), mandates the
steps to be followed in ranking and selecting applications for funding:

l      After the review panel has evaluated the applications, the organization unit prepares a rank
       ordering of the applications based solely on the evaluations by the review panel; and

l      The organization unit determines the order in which applications will be selected for
       funding based on the following factors:

       (1)     Any priorities or other program requirements that have been published in the
               Federal Register and apply to the selection of applicants for new awards; and

       (2)     The rank order of the applications established by the review panel on the basis of
               the selection criteria.

US&FCS followed its procedures for selecting applicants, and the weighted criteria were properly
applied. After the individual panel members completed their reviews and scoring of the
applications, the rating sheets and applications were given to the program staff for compilation
and summary. In one case, the panel requested additional information from the applicant before
recommending the award. The program staff reviewed the top-ranked application for each award
and met with the US&FCS deputy director of the European region for Russia and the NIS, who
also serves as the ABC program director, to determine the competence of the applicant and the
quality of the application. The program director agreed with the selections for the awards and
appropriately documented her approvals on November 26, 1997, February 26, 1998, and March
5, 1998. Next, the Deputy Assistant Secretary for the Office of International Operations agreed
with the panel and recommended approval. Finally, the Assistant Secretary and Director General
approved the panels’ recommendations, and the successful applications were sent to OEAM for
processing through the Department’s award approval system. There were no deviations from the
criteria during the review and selection processes for the new awards. After completing the


                                                10
U.S. Department of Commerce                                            Audit Report BTD-10957-9-0001
Office of Inspector General                                                               March 1999

preaward screening required under DAO 203-26, the Department approved seven new awards
totaling $1,757,078.

V.     Procedures and Practices for Renewing ABC Awards Were Sufficient

We reviewed award renewal procedures and practices for the seven renewals in fiscal year 1997.
The ABC review panels used criteria which were consistent with the program objectives to
evaluate applications for renewals. We found that US&FCS had adequate procedures and
practices for renewing awards and properly followed them in reviewing the awards we examined.

In fiscal year 1997, the ABC program allowed each of the existing seven ABC award recipients to
compete for up to $150,000 to operate for up to an additional 12 months. The program applied a
set of weighted criteria for use in assessing the merits of each application, and US&FCS further
divided the criteria into subcriteria during the evaluation process. The weighted criteria set forth
in the notice and used to evaluate applications were as follow:

l      Quality of work plan (30 points);
l      U.S. trade and investment opportunities in ABC city/region (30 points);
l      Plan for self-sustainability (10 points);
l      Success in meeting program goals to date (15 points);
l      U.S. small business utility (5 points);
l      Qualifications of applicant (5 points); and
l      Cost-effectiveness (5 points).

US&FCS personnel reviewed the renewal proposals for their past performance, justifications for
all proposed costs, and any outstanding debt to the U.S. government. In accordance with
procedures set forth in an agreement with US&FCS on the scope of the work, reviewers were to
address the weighted criteria, verify that required standard forms and other elements of the
application are present, and comment in writing on the applicant’s qualifications. OEAM and the
Department’s Office of General Counsel would then review and approve each request. US&FCS
followed these practices for all cases that we reviewed. In practice, each renewal proposal was
assigned to a panel of two ITA employees and one State Department employee for review. We
found that the panel members applied the published criteria to assess the applicants, and they
properly documented their reviews of each application on US&FCS evaluation forms.

US&FCS renewed all applications by recipients to continue operations at their respective sites,
with a total amount of $649,998. There were no deviations from the criteria during the review
and selection processes for the new awards. The panel decided that the top five scoring




                                                11
U.S. Department of Commerce                                             Audit Report BTD-10957-9-0001
Office of Inspector General                                                                March 1999

proposals would receive an additional $100,000 and the two lower-scoring proposals would
receive an additional $75,000.

VI.    ABC Program Now Included in the CFDA

The ABC program was not included in the Catalog of Federal Domestic Assistance during
FY 1998. US&FCS applied for a CFDA identification number and title, but did not receive it
during the fiscal year. A US&FCS official said a delay at GSA caused the ABC program to not
be included in the CFDA for fiscal year 1998. The ABC program used 11.115, the next available
CFDA identification number, to identify the program until it could be published in the CFDA.

The CFDA is a government-wide compendium of federal programs, projects, services, and
activities that provide assistance or benefits to the American public. It contains vital information
on financial and nonfinancial assistance programs administered by federal departments, which is
then used by applicants and in the federal budgeting and appropriations process. By not ensuring
that the ABC program was included in the CFDA as required, US&FCS had not disclosed all
ABC program details to the Congress and potential applicants in the most efficient manner.

                                               --------

Our only recommendation for action in the draft report was for the Assistant Secretary and
Director General to work with GSA to ensure that the ABC program is promptly included in the
CFDA. After we issued our draft report, US&FCS informed us that it resubmitted its
announcement for a CFDA identification number and title on October 22, 1998, and the program
was included in the December 8, 1998 issue of the CFDA under program number 11.115.
Accordingly, the recommendation is resolved, and no further action by US&FCS is needed.
US&FCS’s complete response to the draft report is attached as Appendix III.




                                                 12
U.S. Department of Commerce                                                                 Audit Report BTD-10957-9-0001
Office of Inspector General                                                                                    March 1999

                                                     APPENDIX I

                    Procedures for Solicitation, Review, and Selection of
                               American Business Centers

                   State Department
                      notification                                                                 A
                  of available funding




                                                                                 Technical panel composed of outside
                                                                                 exports, including:
           ITA publishes Solicitation Notice:                                    - Foreign Commercial Service Officers
           - in Federal Register                                                 - Desk Officers
           - on Internet                                                         - State Department Foreign Service
           - in Russia-NIS related                                                 Officers
             publications
                                                                                 Panel reviews proposals
                                                                                 independently and scores them based
                                                                                 on evaluation criteria:
                                                                                 (1) Quality of Work Plan
                                                                                 (2) Qualification of Applicant
                                                                                 (3) Market Knowledge of Location
                                                                                 (4) Project Timetable
                                                                                 (5) U.S. Small Business Utility
                 Mail application kits                                           (6) Cost Effectiveness
                 to respondents



                                                                                            Technical Panel
                                                                                            meets to discuss
                                                                                            merits of each
                                                                                            proposal


                      ABC Program
                     Office screens             No
                                                     Notify applicant
             applications for completeness           that they are not                   Technical Panel ranks
               based on requirements in              eligible                            applicants and makes
                   Federal Register?                                                     recommendations for
                                                                                         awards


                      Yes

                                                                                 Recommendation evaluated and
                                                                                 approved by:
                              A                                                  - Deputy Director, Europe (Russia
                                                                                   &NIS)
                                                                                 - Deputy Assistant Secretary for the
                                                                                   Office of International Operations
                                                                                 - Assistant Secretary and Director
                                                                                   General




                                                                                          Sent to Department’s
                                                                                           OEAM and Office of
                                                                                            General Counsel
                                                                                              for approval


       Solicitation Process         Review Process           Selection Process
U.S. Department of Commerce                                                Audit Report BTD-10957-9-0001
Office of Inspector General                                                                   March 1999


                                                APPENDIX II


                           AMERICAN BUSINESS CENTER PROGRAM

                                   Map of New Award Project Locations
                                            Fiscal Year 1998



                                                            Arctic Ocean




               MOSCOW
                           Nizhny
                           Novgorod
                                      Yekaterinberg        RUSSIA
                                                                                        Yuzhno-
                                                                                      Sakhalinsk
                          Samara       Chelyabinsk
       Volgograd                                                               Khabarovsk




    American Business Centers (ABCs) awarded in fiscal year 1998
